No. 20-

 

IN THE
SUPREME COURT OF THE UNITED STATES

STAFON THOMPSON,
Petitioner,
Vv.
STATE OF MINNESOTA,
Respondent.

Certificate of Service

It is hereby certified that all parties required to be served have been served with
copies of the PETITION FOR A WRIT OF CERTIORARI, via e-mail and first-class
mail, postage prepaid, this 9th day of July, 2020.

[See Attached Service List]
I certify that the document complies with the page limits set forth in Supreme
Court Rule 33.2(b), excluding the parts of the document that are exempted by
Supreme Court Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.
, 2020.

 

Counsel of Record

University of St. Thomas School of Law
Legal Services Clinic

30 South 10th Street Suite 100
Minneapolis, MN 55403

(651) 962-4810

rmoran@stthomas.edu
Service List
REPRESENTING THE STATE OF MINNESOTA:

Hennepin County Attorney’s Office

Senior Assistant Hennepin County Attorney Mark Griffin
C-2000 Government Center

300 South 6th Street

Minneapolis, Minnesota 55487

Mark.griffin@hennepin.us
612-348-5318
